No. 20-1094
IN THE SUPREME COURT OF THE UNITED STATES
HYUNDAI HEAVY INDUSTRIES CO., LTD.,
PETITIONER
v.
UNITED STATES OF AMERICA, ET AL.
________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 12th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,229 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 12, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1094
HYUNDAI HEAVY INDUSTRIES CO., LTD.
USA, ET AL.

LUCIUS B. LAU
WHITE & CASE LLP
701 THIRTEENTH STREET, NW
WASHINGTON, DC 20005
202-626-3696
ALAU@WHITECASE.COM

